NO.

IN THE

SUPREME COURT OF THE UNITED STATES

October Term, 2020
JEAN MCINTOSH, Petitioner,
Vv.
UNITED STATES OF AMERICA, Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari without
prepayment of costs and to proceed in forma pauperis.

Petitioner has previously been granted leave to proceed in forma pauperis in the
following court(s):

United States Court of Appeals for the Third Circuit

I was appointed by the United States Court of Appeals for the Third Circuit to represent
Jean McIntosh pursuant to the Criminal Justice Act in his appeal from a judgment of conviction
entered by the United States District Court for the Eastern District of Pennsylvania.

/ yy
ollets COM
SALVATORE C. ADAMO, ESQ.
Attorney for Petitioner
1866 Leithsville Road, #306
Hellertown, PA 18055
(215) 751-1735
